                               NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




      OFFICE OF
 INSPECTOR GENERAL




MEMORANDUM

Date:           August 2, 1999

To:             File # I 99030007
                                            A




Background

We received allegations that                                        nded travel while he
was supposed to be teaching

Investigation

We requested the jackets fo-acvite                      NSF awards. We also asked the
                         or copies of all travel expense reports charged t
grants for the past five years, including source documentation. We
reviewed these documents.

We found that thirty-seven travel expense reports had been submitted for reimbursement.
Of these, thirty-one were provided to us with supporting source documentation. Six
expense reports were unable to be located:

                November 1995                   $3,566.73
                December 1995                   $ 882.38
                August 1996                     $2,983.79
                October 1996                    $ 859.00
                January 1997                    $1,477.75
                February 1997                   $ 125.00

                      TOTAL                     $9,894.65
                                                                                    Page 2 of 2



  We contacted                           Director
d-              requested that s e ocument whatOps were taken to locate these six    .
  records. She indicated that the Travel Office at d-        sent a service request to
  Records Management requesting the documents,~butthat they were unable to be loc'ated.
  She also stated that the Travel Office had searched for the missing documents in their
 office.


 Findings

 The majority
         "    - of travel vouchers were provided, and all that were provided were verified
 by source documentation. There is no indication that
 inappropriate travel expenses, or that expenses
    - -   -


 other awards or agencies. Though he has performed-some NSF-funded travel during the
 school semester, the ~niversityisobviou&y aware that this is occurring, as indicated by
 the fact that they continue to approve his travel vouchers. This case is closed.
